U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                          Interim Review of ATF's
                             Project Gunrunner

                                        September 2009




                                      Report Number I-2009-006

                              EXECUTIVE SUMMARY



       Mexican drug trafficking organizations (cartels) are a pervasive
organized crime threat to the United States, according to the Department of
Justice’s 2009 National Drug Threat Assessment. The cartels use firearms
trafficked from the United States – primarily from the Southwest border
states of Texas, California, Arizona, and to a lesser extent, New Mexico – in
their lucrative drug trafficking operations. Project Gunrunner is the Bureau
of Alcohol, Tobacco, Firearms and Explosives’ (ATF) national initiative to
reduce firearms trafficking to Mexico and associated violence along the
Southwest border.

       In the American Recovery and Reinvestment Act of 2009 (Recovery Act)
and in fiscal year (FY) 2009 appropriations, ATF received $21.9 million in
funding to support and expand Project Gunrunner. In May 2009, the Office
of the Inspector General (OIG) opened an evaluation of Project Gunrunner,
which is ongoing. We are issuing this interim report on Project Gunrunner
plans as ATF is expanding the project.

      In our review, we concluded that aspects of ATF’s Project Gunrunner
expansion plans will enhance its ability to combat firearms trafficking.
However, in our view some planned Project Gunrunner activities do not
appear to represent the best use of resources to reduce firearms trafficking,
and issues with new office locations, staffing structure, personnel with
Spanish proficiency, and program measures need to be addressed.

       ATF has reported that by September 30, 2010, it plans to place
Gunrunner resources (personnel, offices, and equipment) dedicated to
firearms trafficking investigations in McAllen, Texas; El Centro, California;
and Las Cruces, New Mexico, including a satellite office in Roswell, New
Mexico. Each of the three office locations will be staffed by a Gunrunner
team, which will consist of Special Agents, Industry Operation Investigators,
Intelligence Research Specialists, and Investigative Analysts. Four ATF
agents will also be located in Ciudad Juarez and Tijuana, Mexico. We
believe the decisions to place new Gunrunner resources in McAllen,
El Centro, Juarez, and Tijuana to be sound, based on ATF’s own criteria
and our additional analysis. However, we question the decision to place
Gunrunner teams in Las Cruces and Roswell.

      We also concluded that the staffing model ATF plans to use for the
new Gunrunner teams appears adequate, provided ATF defines the
reporting and supervisory structure. However, we found that ATF has


U.S. Department of Justice                                                 i
Office of the Inspector General
Evaluation and Inspections Division
insufficient numbers of personnel proficient in Spanish on Gunrunner
teams.

      Finally, we concluded that more specific program measures are
needed to accurately measure Project Gunrunner’s impact on cross-border
firearms trafficking.

     In this interim report we make seven recommendations for ATF to
improve its allocation of resources and implementation of Project
Gunrunner expansion plans.




U.S. Department of Justice                                             ii
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS



Background ...................................................................................... 1


Purpose, Scope, and Methodology of the OIG Review ......................... 7


Results of the Review....................................................................... 10


    Part I: Locations for New Gunrunner Resources ......................... 11


    Part II: Staffing Model for New Gunrunner Teams ...................... 21


    Part III: Spanish Language Proficiency ....................................... 27


    Part IV: Program Measures for New Gunrunner Teams............... 30


Conclusion and Recommendations .................................................. 34


Appendix I: Timeline of Key Project Gunrunner Events ................... 36


Appendix II: Position Descriptions for ATF Staff .............................. 37


Appendix III: Congressional Testimony Reviewed by the OIG........... 39


Appendix IV: ATF's Response.......................................................... 40


Appendix V: OIG Analysis of the ATF’s Response ............................ 46





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND



Introduction

       Mexican drug trafficking organizations (cartels) are a pervasive
organized crime threat to the United States, according to the Department of
Justice’s (Department) 2009 National Drug Threat Assessment. That
assessment found that Mexican cartels operate in at least 230 cities
throughout the United States and are active in every region of the country.
In Mexico, over 6,000 people, including hundreds of police officers, were
killed by drug-related violence in 2008 – more than double the murders in
2007. Murders in 2009 are projected to exceed the previous year’s total
according to Mexican government statistics cited in a recent Government
Accountability Office report. 1

       Mexican cartels use violence to control the lucrative drug trafficking
corridors along the Southwest border through which drugs flow north from
Mexico into the United States, while firearms and cash flow south to
Mexico. 2 Because Mexico severely restricts firearm ownership, the cartels
utilize firearms trafficking to obtain weapons they need to commit violent
crimes. The Southwest border states –
primarily Texas, California, Arizona,              Firearms Trafficking
and to a lesser extent, New Mexico – are
                                             “The illegal diversion of firearms
a primary source of the firearms used        out of lawful commerce and into
by Mexican drug cartels. The growing         the hands of criminals,
crime in Mexico and fears of spillover       prohibited persons, and
violence in the United States have led to unsupervised juveniles for the
an effort by U.S. and Mexican                purpose of profit, prestige or
                                             power.”
authorities to curb firearms trafficking.
                                                                  – ATF definition
       The Bureau of Alcohol, Tobacco,                      November 2004
Firearms and Explosives (ATF) is the
primary U.S. agency leading the effort against firearms trafficking. ATF
regulates and enforces federal criminal laws related to firearms and the
firearms industry, as authorized by the Gun Control Act of 1968. ATF is the
only federal agency authorized to issue licenses and inspect gun dealers to

       1 U.S. Government Accountability Office, Firearms Trafficking: U.S. Efforts to
Combat Arms Trafficking to Mexico Face Planning and Coordination Challenges, GAO-09-709
(June 2009).

       2Congressional Research Service, Mexico’s Drug-Related Violence, CRS Report
R40582 (May 27, 2009).


U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation and Inspections Division
ensure compliance with laws governing the sale, transfer, possession, and
transport of firearms. 3 ATF is also the agency responsible for analyzing
trace data received from “crime guns” recovered in Mexico. According to
ATF, crime guns include all firearms “recovered by law enforcement that
were used in a crime, suspected to have been used in a crime, or recovered
in relation to a crime.” 4 Although ATF’s access to crime guns in Mexico is
limited, the Government Accountability Office and ATF have reported that
about 90 percent of the firearms submitted to ATF by the government of
Mexico for tracing originated in the United States.

       ATF has two distinct but complementary roles pertaining to firearms
trafficking. ATF’s law enforcement role involves criminal investigations of
violations of U.S. firearms law by Special Agents (agents) who are part of
enforcement groups. ATF’s regulatory role involves educating gun dealers
about their legal and regulatory responsibilities and evaluating their level of
compliance with the relevant firearms laws and regulations. Industry
Operations Investigators performing this function are part of ATF’s industry
operations groups.

Project Gunrunner

       Project Gunrunner is ATF’s national initiative to stem firearms
trafficking to Mexico by organized criminal groups. 5 It is intended to
support the Department’s overall Southwest Border Initiative to combat
Mexican drug cartels in the United States and to help Mexican law
enforcement battle cartels in their own country. 6 ATF has announced that,
in partnership with other U.S. agencies and the government of Mexico, it is
“deploying its resources strategically on the Southwest border to deny
firearms, the ‘tools of the trade,’ to criminal organizations in Mexico and
along the border, and to combat firearms-related violence affecting


       3 The term “gun dealers” refers to federal firearms licensees who are licensed
through ATF to manufacture, import, or deal in firearms.

       4 Mark Kraft, “Firearms Trafficking 101 or Where do Crime Guns Come From?,”

United States Attorneys’ Bulletin (January 2002).

       5 Department Fact Sheet: Department of Justice Efforts to Combat Mexican Drug

Cartels (April 2, 2009).
       6 According to the Department of Justice, the Southwest Border Initiative is a
multi-agency federal law enforcement effort to dismantle drug cartels by addressing cross-
border drug and weapons trafficking by Mexican cartels that operate along the Southwest
Border.



U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
communities on both sides of the border.” 7 According to ATF officials,
although ATF has been investigating firearms trafficking cases for over
40 years, the increased violence in Mexico in recent years has sparked a
renewed ATF emphasis on firearms trafficking along the Southwest border.
Consequently, ATF’s four Southwest field divisions that provide coverage for
the almost 2,000-mile U.S. and Mexico border – Houston, Dallas, Phoenix,
and Los Angeles – are the primary focus of Project Gunrunner.

       ATF has established four main objectives for Project Gunrunner:

       1. Investigate individuals responsible for illicit firearms trafficking
          along the Southwest border.
       2. Coordinate with U.S. and Mexican law enforcement along the
          border in firearms cases and violent crime.
       3. Train U.S. and Mexican law enforcement officials to identify
          firearms traffickers.
       4. Provide outreach education to gun dealers.
       5. Trace all firearms to identify firearms traffickers, trends, patterns,
          and networks.

       Project Gunrunner began in 2005 as a pilot project in Laredo, Texas. 8
In January 2008, ATF announced that it would expand its Project
Gunrunner efforts to combat illegal firearms into Mexico by: (1) adding
35 agents, 15 Industry Operations Investigators, and 4 Intelligence
Research Specialists to the Southwest border; (2) assigning 3 additional ATF
staff members to the El Paso Intelligence Center (EPIC); and (3) deploying
eTrace – ATF’s firearms tracing system – to the 9 U.S. consulates in Mexico. 9

       In March 2009, ATF reported to Congress that it had 207 personnel
committed to Project Gunrunner in its 4 Southwest border field divisions.
These personnel consisted of 148 agents dedicated to investigating firearms
trafficking full-time (about 6 percent of ATF’s total agents) and 59 Industry
Operations Investigators responsible for conducting regulatory inspections of

       7   ATF website and ATF “Fact Sheet: Project Gunrunner” (September 2008).
         8 The exact inception date of Project Gunrunner is unclear. According to an April

28, 2009, ATF news release, Project Gunrunner began in 2005. However, other ATF
officials told us that they consider April 2006 the official implementation date of Project
Gunrunner.
       9 EPIC is a multi-agency intelligence center that supports U.S. law enforcement
agencies. ATF contributes staff to EPIC to support Project Gunrunner.


U.S. Department of Justice                                                              3
Office of the Inspector General
Evaluation and Inspections Division
gun dealers along the Southwest border (about 5 percent of ATF’s Industry
Operations Investigators). 10 Appendix I provides a timeline of key events
related to the development and expansion of Project Gunrunner.

Funding for Project Gunrunner

      ATF is funding Project Gunrunner from several sources, including
ATF’s general appropriation and three dedicated appropriations it received
in FY 2009. Prior to FY 2009, ATF funded all of its Project Gunrunner
operations out of its general appropriation. However, ATF was unable to
provide us with the total amount of general appropriation funds it dedicated
in FY 2009 to Project Gunrunner efforts along the Southwest border.

      In FY 2009, ATF received a total of $21.9 million from three different
sources specifically to support and expand Project Gunrunner. On
February 17, 2009, the President signed into law the American Recovery and
Reinvestment Act of 2009 (Recovery Act), which allocated $10 million to
Project Gunrunner efforts. 11 ATF also received $5.9 million in annual FY
2009 appropriation for Project Gunrunner and $6 million under the
President’s global war on terror funding. The Recovery Act funds and the
funding from the President’s global war on terror may be spent over 2 years
(FY 2009 and FY 2010), while the $5.9 million FY 2009 annual
appropriation must be spent during FY 2009.

     ATF’s FY 2010 budget request asks for $17.9 million and
92 additional positions for Project Gunrunner. 12

Project Gunrunner Expansion Plans

       In FY 2009 and FY 2010, ATF plans to create new Gunrunner teams
in five offices along the Southwest border and place additional agents in
U.S. consulates in Mexico. 13 According to the Program Plan, a document
ATF submitted to Congress summarizing its planned activities and

     10 William Hoover, ATF Deputy Director for Field Operations, before the Senate

Committee on the Judiciary, Subcommittee on Crime and Drugs (March 17, 2009).

       11   Pub. L. No. 111-5.

       12 We noted in a FY 2010 funding proposal for Southwest Border Enforcement that
ATF stated it would actually need $39.5 million to combat firearms trafficking along the
Southwest border.

       13  “Gunrunner teams” refers to the new teams that ATF plans to create with staff it
is hiring and relocating under the Project Gunrunner expansion.


U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
categories of expenditures using Recovery Act funding, by September 30,
2010, ATF will establish new Gunrunner teams in (1) McAllen, Texas;
(2) El Centro, California; and (3) Las Cruces, New Mexico, including a
satellite office in Roswell, New Mexico. 14 In addition, four ATF agents will be
located in Ciudad Juarez and Tijuana, Mexico, to provide Gunrunner
support to the government of Mexico. ATF plans to staff these locations
with a total of 37 employees by hiring new employees and relocating
experienced personnel. Table 1 shows the type of personnel planned for
each team using the Recovery Act funding, and Appendix II provides a
description of the general duties for each of these job categories.

                    Table 1: Location of ATF’s Planned Personnel 

                              Under the Recovery Act 


                                            ATF Personnel
                                                   Intelligence
                                                     Research     Investigative
        Locations         Agents      Inspectors    Specialists     Analysts      Total
McAllen, TX                  7             2              1               1        11
El Centro, CA                7             2              1               1        11
Las Cruces, NM               5             2              1               1        9
Roswell, NM
(satellite)                  2             0              0               0        2
Tijuana, MX                  2             0              0               0        2
Ciudad Juarez, MX            2             0              0               0        2
Total                       25             6              3               3        37
Source: ATF, Program-Specific Plan for Management of Recovery Act Funds (May 15,
2009).

       According to ATF officials, ATF is also developing plans to create two
new Gunrunner teams in Phoenix and Houston. These 2 teams will be
staffed with 28 additional positions, and each team will have 11 agents, 2
Industry Operations Investigators, and 1 Investigative Analyst. ATF is also
planning to add 12 Industry Operations Investigators to Southwest border
offices (locations not yet determined). Although ATF’s plans are still in
development, as of August 2009, ATF planned to add 77 positions to the
current 207 staff who were working on Project Gunrunner as of March
2009, bringing the project’s staffing in the 4 Southwest border field divisions
to 284. ATF has also requested additional funding and 92 new positions in

          ATF submitted the May 15, 2009, Program Plan to Congress to explain how it
         14

intended to use the $10 million allocated for Project Gunrunner in the Recovery Act.


U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
its FY 2010 budget request to establish additional Gunrunner teams in
El Paso, Texas, and Tucson, Arizona, and provide additional staff for the
U.S. consulates in Mexico. 15

Purpose of New Gunrunner Teams

     ATF reported to Congress in its Program Plan for Recovery Act
expenditures that its Project Gunrunner resources would be:

       dedicated to firearms trafficking investigations . . . [to] help
       support the southwest border initiative to reduce cross-border
       drug and weapons trafficking and the associated high level of
       violence occurring on the border between the United States and
       Mexico.

       According to ATF, the Gunrunner teams will enhance ATF’s law
enforcement and regulatory mission to reduce firearms and explosives-
related violent crime in both countries. ATF also reported in the Program
Plan that the new teams will increase its ability to deny guns to firearms
traffickers, prohibited persons, and potential criminals.




       15ATF’s plans to expand Project Gunrunner beyond the Program Plan it provided to
Congress will be addressed in the full OIG report.


U.S. Department of Justice                                                        6
Office of the Inspector General
Evaluation and Inspections Division
      PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW



Purpose

       To determine the extent to which the planned expansion of Project
Gunrunner will enhance ATF’s capacity to reduce firearms trafficking and
violence along the Southwest border, we examined the planning, hiring,
staffing, and allocation of resources for the project. Specifically, we sought
to examine ATF’s decisions about spending its FY 2009 Project Gunrunner
funding – including the $10 million Recovery Act funds – and staffing the
new Gunrunner teams. We also analyzed whether ATF’s resources will be
allocated in a manner that will achieve the greatest impact on firearms
trafficking.

Scope

      We conducted our fieldwork from May to August 2009. In examining
ATF’s planned expansion of Project Gunrunner, we focused on the actions
ATF took from the February 2009 passage of the Recovery Act until
August 2009. This is the first of two reviews by the Office of the Inspector
General (OIG) examining the extent to which the expansion of Project
Gunrunner improves ATF’s capability to reduce firearms trafficking and
violence along the Southwest border.

      This interim review focuses on ATF’s current plans for expanding
Project Gunrunner and is intended to report on Project Gunrunner plans as
ATF expands the project. We could not measure the impact of ATF’s Project
Gunrunner because ATF is in the early stages of hiring and training staff.
Issues regarding the implementation and impact of Project Gunrunner will
be addressed in our subsequent report.

      This review also responds to Recovery Act guidance that the OIG
report on activities and the Department’s Agency Plan for Management of
Recovery Act Funds.

Methodology

       The OIG conducted 67 in-person and telephone interviews with
personnel from ATF, United States Attorneys’ Offices (USAO), and several
state and local law enforcement agencies. We conducted site visits at ATF’s
Houston Field Division and ATF field offices in McAllen, Texas, and
Las Cruces, New Mexico, as well as at EPIC. We also attended an ATF-
sponsored violent crime summit in Albuquerque, New Mexico, and a course

U.S. Department of Justice                                                 7
Office of the Inspector General
Evaluation and Inspections Division
on firearms trafficking at the National Advocacy Center in Columbia, South
Carolina. To prevent duplication of effort, we coordinated with Government
Accountability Office staff members who had conducted a prior review on
firearms trafficking to Mexico.

Interviews

       ATF. We conducted 54 interviews of ATF personnel at headquarters
and in ATF field offices. Our headquarters interviews included the Deputy
Assistant Director of Field Operations for the Western United States; the
Deputy Assistant Director for Industry Operations; staff from the Southwest
Border Working Group; the Office of Strategic Intelligence and Information;
the Office of Management; the Recruitment, Hiring, and Staffing Center; the
Office of Field Operations; and the Office of International Affairs. 16 We
interviewed ATF field personnel from the Southwest border field divisions
and offices, including a Director for Industry Operations, Special Agents in
Charge, Assistant Special Agents in Charge, Resident Agents in Charge,
other supervisors, agents, Industry Operations Investigators, Intelligence
Research Specialists, and Investigative Analysts.

      USAOs. We interviewed two prosecutors from the USAOs for the
Southern District of Texas (Houston) and the District of New Mexico
(Las Cruces) to understand their firearms trafficking caseload and
coordination between those offices and the local ATF offices regarding
prosecuting firearms trafficking cases.

       State and local agencies. We interviewed eight law enforcement
personnel from city police and sheriffs’ offices to understand the types of
crimes in their areas and the relationship between those agencies and the
local ATF offices regarding firearms trafficking cases.

Data Analysis

       To assess the process used to select the locations for the new
Gunrunner teams, we analyzed ATF data, including information on active
gun dealers in the Southwest border region (defined by ATF as field
divisions encompassing Southern California, Arizona, New Mexico, Texas,
and Oklahoma); locations of gun dealers who provided firearms recovered in
crimes in Mexico; statistics on successful gun traces; and firearms
trafficking cases initiated and referred for prosecution. The data we

       16  The Southwest Border Working Group is an entity at ATF headquarters that was
created after the February 2009 Recovery Act disbursement to oversee ATF’s Southwest
border divisions and offices.


U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation and Inspections Division
reviewed generally covered calendar years (CY) 2004 to 2008, and portions
of CY 2009. 17

Document Review

      To understand how ATF allocated its funding for Project Gunrunner,
we reviewed expenditures prepared by the Chief Financial Officer’s staff, the
Recovery Act Program Plan, and other documents ATF submitted to
Congress, as well as budget requests and justifications. We also reviewed
ATF policies, guidelines, and plans relating to Project Gunrunner, including
performance measures, operating plans, and field office documents. We
reviewed and analyzed ATF management’s statements and testimony to
Congress on firearms trafficking and Southwest border violence, including
nine hearings held from March to July 2009. Appendix III provides a list of
those hearings.




       17 The gun dealer data ATF provided included gun dealers who sell in stores or
pawn shops and had active licenses in CY 2008, per ATF’s Federal Licensing System. The
crime gun trace data ATF provided covered CY 2004 through May 19, 2009, and included
gun dealers whose licenses were active and inactive during that time.


U.S. Department of Justice                                                        9
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW



       We found aspects of ATF’s Project Gunrunner expansion
       plans should enhance its ability to combat firearms
       trafficking along the Southwest border. However, some
       planned Gunrunner activities do not appear to represent
       the best use of resources to reduce firearms trafficking, and
       some issues have yet to be addressed, such as staffing
       structure, Spanish proficiency, and program measures.
       While we believe that four of the locations selected by ATF
       for new Gunrunner resources are sound, the other two
       locations are questionable and unlikely to create the most
       significant reduction in firearms trafficking and related
       violent crime. The staffing model planned for the new
       Gunrunner teams appears adequate, provided ATF defines
       the teams’ reporting and supervisory structure.            In
       addition, we found that ATF has insufficient numbers of
       personnel proficient in Spanish to staff Project Gunrunner.
       Finally, we believe that ATF needs to develop better
       program measures to assess the impact new Gunrunner
       teams have on firearms trafficking and related violent
       crime along the Southwest border.

      Part I of this report describes ATF’s selections for new locations to
create Gunrunner teams. Part II discusses the staffing model ATF plans to
use for the Gunrunner teams. Part III describes ATF’s need for Spanish
language skills along the Southwest border. Part IV discusses ATF’s
program measures for new Gunrunner teams.




U.S. Department of Justice                                             10
Office of the Inspector General
Evaluation and Inspections Division
        PART I: LOCATIONS FOR NEW GUNRUNNER RESOURCES



Soundness of ATF’s location decisions varies.

       We reviewed ATF’s selection of locations for new Gunrunner personnel
funded by the Recovery Act and found that the decisions to place new staff
in McAllen, El Centro, Tijuana, and Juarez appear sound based on the
selection criteria discussed below. However, our analysis indicated that the
new Gunrunner team planned for Las Cruces and the new satellite office
planned for Roswell are both questionable.

       ATF reported to the OIG that, to help determine the locations of the
new Gunrunner teams, the ATF executive leadership team, in collaboration
with the affected field divisions, analyzed firearms trace statistics and
existing staffing levels in the four Southwest border field divisions (Dallas,
Houston, Los Angeles, and Phoenix). 18 According to ATF, these locations
were chosen based on “the number of firearms trace referrals, proximity to
federal firearms licensees [gun dealers], the presence of experienced special
agents in locations without a permanent field office, proximity to the
southwest border and locations of other federal agencies’ field offices.”

      We analyzed data related to several of these factors to determine
whether the selected sites are those in which a Gunrunner team is likely to
represent the best use of resources to reduce firearms trafficking and
related violent crime. To evaluate the location decisions, we considered data
related to the five criteria ATF told us it used in its analysis. In addition, we
analyzed ATF’s FY 2008 firearms trafficking workload for the Project
Gunrunner locations and interviewed ATF headquarters and field personnel,
USAO prosecutors, and state and local law enforcement officials located in
or familiar with each area.

      ATF has identified the top corridors along the Southwest border used
to supply the firearms that were recovered in crimes throughout Mexico.
According to ATF, the three main firearms trafficking corridors from the
United States to Mexico are: (1) the “Houston Corridor,” running from
Houston, San Antonio, and Laredo, Texas, and crossing the border into
Nuevo Laredo, Reynosa, and Matamoros; (2) the “El Paso Corridor,” running
from El Paso, Texas, across the border at Ciudad Juarez; and (3) the


       18ATF’s executive leadership team includes the Assistant Director of Field
Operations and the Deputy Assistant Director of Field Operations for the Western United
States.


U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation and Inspections Division
“Tucson Corridor,” running from Tucson, Arizona, across the border at
Nogales. 19 See Figure 1.

 Figure 1: Firearms Trafficking Corridors and Planned ATF Gunrunner
             Team Locations Along the Southwest Border




Note: Not to scale.

Source: Graphic representation of ATF’s three major firearms trafficking corridors as
described in the “Southwest Border Initiative: Project Gunrunner” (June 2007).

ATF’s Process for Choosing New Locations

     ATF provided us with the following explanation of how it chose the
new domestic locations:

       Due to the time considerations necessary to establish new field
       offices and the impact these decisions have on the success of
       our enforcement efforts, ATF’s executive leadership utilized a
       modified organizational change proposal process in selecting the
       proposed locations. The affected field divisions were not



       19   “Southwest Border Initiative: Project Gunrunner” (June 2007), pp. 3-4.


U.S. Department of Justice                                                              12
Office of the Inspector General
Evaluation and Inspections Division
       required to submit formal requests for new offices as outlined in
       ATF Order 1030.1. 20

       Also, the ATF Deputy Assistant Director of Field Operations
for the Western United States told us that the New Mexico locations
and El Centro were selected because ATF did not have a significant
presence in those locations.

       ATF used somewhat different criteria for the selections of
Tijuana and Juarez. For these sites, ATF reported that its executive
leadership team and International Affairs Office (which supervises
ATF’s staff in Mexico) analyzed firearms recoveries and associated
levels of violence in Mexico.

Information Summary for New Locations

       The OIG analyzed and compared data on active gun dealers and
traces from Mexico to gun dealers in each of the four U.S. locations for the
new Gunrunner staff, as well as other pertinent demographic information.
Table 2 provides a summary of the geographical information, gun dealer
population, crime gun trace data, and workload for each of the four
locations.




       20 Pursuant to ATF Order 1030.1, ATF must submit an Organizational Change
Proposal for, among other things, establishing a new field office or group.


U.S. Department of Justice                                                     13
Office of the Inspector General
Evaluation and Inspections Division
     Table 2: Summary of Information for New Gunrunner Locations

                 Partially Funded by the Recovery Act


                                                               El        Las        Roswell
                                                 McAllen     Centro     Cruces     (satellite)
                                                               Los
Field Division                                   Houston     Angeles    Phoenix     Phoenix

Proximity to Mexico Border                       10 miles   10 miles    47 miles   130 miles

Counties Covered                                    4          2          14           1
Field Division Coverage
(in square land miles)                            4,295      8,374      57,574       6,070
Population of All Counties Covered               978,369    2,956,194   569,007     61,382

Other Federal Agency Presence:
    o DEA                                          Yes        Yes         Yes          No
    o USMS                                         Yes        Yes         Yes         Yes
    o FBI                                          Yes        Yes         Yes         Yes
    o USAO                                         Yes        Yes         Yes          No
Mexican Crime Guns Traced to Gun Dealers in
Area, CY 2008
(Total Southwest border traces = 5,106)            656        160         70           8
Percentage of Total Southwest Border
Mexican Crime Gun Traces                          12.8%       3.1%       1.4%       0.16%
Active Gun Dealers in Area, CY 2008
(Total Southwest border gun dealers = 8,653)       112        104         237          22
Percentage of Total Southwest Border Gun
Dealers                                           1.3%        1.2%       2.7%       0.25%
Workload - Firearms Trafficking Cases Referred
for Prosecution in FY 2008:
    o Trafficking Cases                            37          0           0           0
    o Trafficking Defendants                       51          0           0           0
    o Guns Believed Trafficked                    1,120        0           0           0
Sources: ATF data and 2000 U.S. Census. “Total Southwest border” numbers are based
on the four Southwest border field divisions.

McAllen appears supported by selection criteria.

       The OIG found that ATF’s selection of McAllen for the location of a
new Gunrunner team appears to be supported by ATF’s selection criteria
and our additional analysis. In CY 2008, Texas was the source of more
crime guns recovered in Mexico than any other state. The data provided by
ATF on crime guns recovered in Mexico in CY 2008, active gun dealer data
for CY 2008, and firearms trafficking workload for FY 2008 showed that the
McAllen area was the source for 656 traces, or 12.8 percent of the 5,106
total traces to the Southwest border region. That number of traces was

U.S. Department of Justice                                                            14
Office of the Inspector General
Evaluation and Inspections Division
proportionally high because McAllen had only 1.3 percent of the total gun
dealers for the Southwest border (112 of 8,653 active gun dealers). The OIG
found that in FY 2008 there were 37 firearms trafficking cases in the
McAllen area referred for prosecution, involving 51 defendants and 1,120
guns. The McAllen Field Office is only 10 miles from the Mexican border
and is on a firearms trafficking corridor.

       Most (14 of 16) ATF field personnel we interviewed regarding the
McAllen location concurred that a new Gunrunner team in McAllen was
justified and will make a significant impact on firearms trafficking to
Mexico. Two staff questioned the decision and cited additional locations in
Texas where new Gunrunner teams are also needed, including El Paso,
Brownsville, San Antonio, Eagle Pass, Del Rio, and Laredo. Although there
may be additional needs for Gunrunner teams in other locations, the OIG
believes ATF’s decision to place a new Gunrunner team in McAllen is sound.

El Centro appears supported by selection criteria.

       The OIG found that ATF’s selection of El Centro as a location for a
new Gunrunner team also appears to be supported by ATF’s selection
criteria and our analysis. The El Centro area itself did not have a high
percentage of crime gun traces from Mexico (3.1 percent, 160 traces) or
active gun dealers (1.2 percent, 104 gun dealers) in the Southwest border
region in CY 2008. However, California was the second highest source state
for guns traced from Mexico to U.S. gun dealers in CY 2008. According to
ATF, firearms purchased in California and Arizona are primarily transported
into Mexico via the Tucson Corridor. El Centro is on the Tucson corridor at
Interstate 8 (running east-west), just 10 miles from the Mexican border near
a point-of-entry to Mexico.

       Placing a Gunrunner team in this location was supported by ATF
management and other personnel we interviewed. The Deputy Assistant
Director for the Western United States and the Assistant Special Agent in
Charge of the Los Angeles Field Division (who will oversee the El Centro
Gunrunner team) both said that the creation of the new team is necessary
because of El Centro’s proximity to a major point of entry from Mexico and
the fact that ATF previously had only one agent in the area. ATF
management believes that new staff, if stationed in the area, will be able to
build firearms trafficking cases. Five of six field personnel that we asked
about El Centro said it was a good decision strategically because it is close
to the border. In addition, ATF has been trying to establish an office in
El Centro since May 2006.




U.S. Department of Justice                                               15
Office of the Inspector General
Evaluation and Inspections Division
       We believe El Centro’s close proximity to Mexico and location on the
Tucson Corridor support the need for a Gunrunner team that can focus
solely on firearms trafficking cases.

Juarez and Tijuana appear supported by selection criteria.

       The OIG found that ATF’s decision to add staff to the U.S. consulates
in Juarez and Tijuana also appears to be supported by ATF’s selection
criteria and our additional analysis. According to ATF, Ciudad Juarez and
Tijuana are two of the main border crossing points between the United
States and Mexico, and both fall within two of the main firearms trafficking
corridors. Additionally, ATF field and headquarters personnel – including
agents working in Mexico – note that Ciudad Juarez and Tijuana are “hot
spots” for violent crime and drug cartels associated with firearms trafficked
from the United States. Our analysis of data on firearms recovered in
Mexico and successfully traced by ATF in CY 2008 showed that both
Tijuana and Juarez were among the top six locations. 21 Tijuana ranked
second and accounted for 24 percent of the recoveries, while Juarez ranked
sixth.

       We also noted that ATF has only four agents in Mexico, stationed in
Mexico City and Monterrey. Many of the personnel we interviewed said that
ATF’s presence in Mexico is inadequate, particularly compared to other U.S.
federal law enforcement presence in the country. ATF personnel suggested
that to be successful in Mexico, there should be agents at each of the nine
U.S. consulates. For these reasons, the OIG believes that ATF’s decision to
station ATF agents in these two locations is supportable.

Establishing a Gunrunner team in Las Cruces is questionable.

       The OIG found that ATF’s decision to place a new Gunrunner team in
Las Cruces is questionable. The data provided by ATF on crime guns
recovered in Mexico in CY 2008, active gun dealer data for CY 2008, and
firearms trafficking workload for FY 2008, did not support that the
Las Cruces area is a significant source of trafficked guns. Data showed that
only 1.4 percent (70 of 5,106) of firearms traces from Mexico to the
Southwest border came from gun dealers in the area to be covered by the
Las Cruces Field Office, although those gun dealers comprised 2.7 percent
of the gun dealers in the region in CY 2008. In fact, of all the Southwest
border states New Mexico has the lowest number of Mexican crime guns
traced to the state’s gun dealers, and it ranked 10th nationwide in firearm
traces from Mexico in CY 2008.

       21   Not all firearms that are recovered by Mexican authorities are traced by ATF.


U.S. Department of Justice                                                             16
Office of the Inspector General
Evaluation and Inspections Division
       The low number of traces from Mexico indicates that gun dealers in
Las Cruces are not being used as a significant source for trafficked guns
compared to Texas and California, which are the top source states for crime
guns recovered in Mexico. That observation was confirmed by local law
enforcement officials. We were also told by senior Las Cruces law
enforcement officers that 99 percent of the crime in Las Cruces is domestic
crime related to local gangs, not firearms trafficking or crime related to
Mexican drug cartels. In addition, senior Las Cruces police officials we
interviewed said they had not heard of any corrupt gun dealers in
Las Cruces and did not think straw purchasing was an issue. 22 We noted
that Las Cruces is not on one of the major firearms trafficking routes to
Mexico identified by ATF and is located 47 miles from the Mexican border.

       We also found that the firearms trafficking workload of the agents in
the Las Cruces Field Office is lower than in the other proposed locations. As
of June 2009, the Las Cruces Field Office had six agents, one Investigative
Analyst, and two Industry Operations Investigators. ATF’s firearms
trafficking data showed that the Las Cruces Field Office did not generate
any firearms trafficking cases that were referred for prosecution in FY 2008.
Agents in the Las Cruces Field Office estimate that they spend no more than
30 percent of their time investigating firearms trafficking, even though
Las Cruces Field Office management said they put a high priority on
firearms trafficking investigations. The Resident Agent in Charge told us
that the Las Cruces Field Office investigates all cases with a firearms
trafficking nexus that are referred to it.

       We discussed the decision to locate a new Gunrunner team in
Las Cruces with ATF personnel and several told us they found the decision
puzzling. ATF field personnel we interviewed said that the new Las Cruces
Gunrunner team was originally intended to be located in El Paso, where
there is a greater need for a new Gunrunner team due to the greater
firearms trafficking workload there. By way of comparison, ATF’s El Paso
Field Office is located only seven blocks from the Mexican border and
Juarez, and has the largest area of responsibility for the United States-
Mexico border. At least 50 percent of its cases involve firearms trafficking,
according to the Resident Agent in Charge.

      ATF field personnel also told us that if a Gunrunner team is sent to
Las Cruces, deconfliction issues are likely to occur because of its proximity

       22  A “straw purchase” is the lawful acquisition of a firearm from a gun dealer by an
individual who then unlawfully provides the firearm to a prohibited person. According to
ATF, straw purchasing is one of the most frequent methods used to divert firearms out of
lawful commerce.


U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation and Inspections Division
to El Paso and the resulting jurisdictional overlap. Organizationally, the
Las Cruces Field Office is under ATF’s Phoenix Field Division and the
El Paso Field Office is under the Dallas Field Division. Agents explained
that the firearms trafficking that does occur in Las Cruces is often run out
of El Paso, creating investigational overlaps with the El Paso Field Office.
When that happens, the Las Cruces personnel must travel frequently to
El Paso (for example, to follow leads, meet with attorneys, attend court
proceedings), and they lose productive time driving over an hour each way
from Las Cruces to El Paso. Additionally, Las Cruces and El Paso are
located in different judicial districts, as well as in two different federal
judicial circuits, the Fifth and Ninth, respectively, which presents more
complicated prosecutorial and litigation issues.

       Managers for the two field offices told the OIG that they communicate
when such overlaps happen now, but according to the Resident Agent in
Charge for the Las Cruces Field Office it can be very difficult and involve lots
of red tape. Although field office management from the Dallas Field Division
and the El Paso Field Office said that they believed jurisdictional problems
do not currently exist between El Paso and Las Cruces, they acknowledged
that the new Gunrunner team might create jurisdictional issues and agreed
that having a memorandum of understanding to resolve jurisdictional issues
would be helpful.

       In sum, the OIG’s analysis indicates that the Las Cruces Field Office
lacks sufficient firearms trafficking work to support a new Gunrunner team
focused solely on firearms trafficking, as ATF’s Program Plan to Congress
outlined. Data does not show that the Las Cruces area is a high trace
location for crime guns recovered in Mexico or that there is violent crime
related to trafficking in the Las Cruces area. The data we reviewed and
discussions we had with ATF and local law enforcement personnel indicate
that all identified firearms trafficking leads are investigated with existing
resources. Consequently, we concluded that the decision to locate a
Gunrunner team in Las Cruces does not appear to represent the best use of
ATF resources for reducing firearms trafficking along the Southwest border.

Establishing a satellite office for a Gunrunner team in Roswell is
questionable.

      The OIG found that ATF’s decision to create a new satellite office for a
Gunrunner team in Roswell is also questionable. Roswell is 130 miles from
the Mexican border, farther than any of the other locations for Gunrunner
teams. We found that the Roswell area is not a high source location for
firearms recovered in Mexico. Only 8 of the 5,106 (0.16 percent) Mexican
crime guns successfully traced in CY 2008 were sold by gun dealers in the

U.S. Department of Justice                                                18
Office of the Inspector General
Evaluation and Inspections Division
Roswell area. Further, there were only 22 active gun dealers in the area in
CY 2008, just 0.25 percent of the 8,653 active gun dealers along the
Southwest border. Roswell is not on or near a known firearms trafficking
corridor to Mexico, and currently there is no ATF presence in the area. 23

       ATF field personnel we interviewed stated that firearms trafficking has
not been and is not currently a problem in Roswell. They stated that, based
on the types of crime in Roswell, they did not believe there will be enough
firearms trafficking cases, or even cases with a nexus to firearms trafficking,
to keep two agents busy there. The ATF agents and other law enforcement
personnel we interviewed about Roswell – including Las Cruces police
officers and an Assistant United States Attorney – told us that Roswell has a
significant gang and “home grown” illegal drug problem
(methamphetamine), but neither of those types of crimes has known ties to
firearm trafficking or Mexican cartels. The ATF Deputy Assistant Director of
Field Operations for the Western United States told us that New Mexico
locations were selected because ATF did not have a significant presence in
those locations.

       ATF personnel in Las Cruces and other areas told us there are other
areas along the Southwest border that have a greater immediate need for a
satellite office or additional agents than does Roswell. For example, ATF
personnel in the Houston Field Division noted that Brownsville has a
significant firearms trafficking problem that warrants dedicated resources.
ATF personnel also cited Laredo and Del Rio as locations presently in need
of additional resources dedicated to firearms trafficking.

      We believe the evidence does not support Roswell as a location where
ATF’s limited resources can make the greatest contribution to reducing
firearms trafficking, particularly given other locations along the Southwest
border that have a more immediate firearms trafficking problem.

Conclusion

      The OIG believes ATF’s decisions to place new Gunrunner resources
in McAllen, El Centro, Tijuana, and Juarez are sound. However, the new
resources planned for Las Cruces and Roswell appear unlikely to have the
greatest impact on firearms trafficking and related violent crime along the
Southwest border. We based these conclusions on ATF’s own criteria, other
pertinent data, and input from ATF, USAO, and state and local law
enforcement officials familiar with each of those areas.

       23“Efforts to Combat Firearms Trafficking to Mexico: Project Gunrunner,”
March 17, 2009.


U.S. Department of Justice                                                        19
Office of the Inspector General
Evaluation and Inspections Division
       Because we did not fully assess the potential locations suggested by
ATF personnel, or other locations that ATF could consider, we do not
identify specific locations that would represent the ideal location for the
teams. Nonetheless, we believe that ATF management should reassess
potential locations to identify and assess other sites that would provide a
better use of its resources.

Recommendations

       We recommend that ATF:

       1. assess whether other locations along the Southwest border
          represent a better use of Gunrunner resources intended for
          Roswell and Las Cruces to ensure maximum impact of Gunrunner
          resources.

       2. Phoenix and Dallas Field Divisions develop deconfliction protocols
          to manage current and potential jurisdictional overlaps.




U.S. Department of Justice                                             20
Office of the Inspector General
Evaluation and Inspections Division
       PART II: STAFFING MODEL FOR NEW GUNRUNNER TEAMS



The staffing model planned for the new Gunrunner teams appears
adequate provided ATF defines the reporting and supervisory structure.

      The staffing model planned for the new Gunrunner teams differs from
the standard ATF staffing model, but our analysis shows that it appears
sound and should assist the teams in managing their work efficiently.
However, the roles of the personnel that compose the teams have not yet
been defined, and the reporting and management structure is ambiguous.
Specifically, ATF has not yet defined the supervisory structure, the role of
Industry Operations Investigators and Intelligence Research Specialists on
the new Gunrunner teams, and the extent to which staff members will work
exclusively on firearms trafficking cases.

ATF’s Gunrunner team staffing model differs from its standard model.

       The staffing model ATF plans to use for personnel assigned to the new
Gunrunner teams in McAllen, El Centro, and Las Cruces differs from ATF’s
standard model because it includes Industry Operations Investigators and
Intelligence Research Specialists as members of the enforcement groups. 24
According to ATF officials, the standard ATF staffing model for an
enforcement group calls for 10 agents, 1 group supervisor, and
1 Investigative Analyst. 25 Similarly, the standard staffing model for ATF
industry operations groups is 10 Industry Operations Investigators and 1
area supervisor. According to ATF officials, they have successfully used
these staffing models over the last decade and believe that they strike an
efficient balance between staffing levels and span of control. The OIG was
told that most personnel in existing ATF field offices, satellite offices, and
divisions are organized using these staffing models.

       Enforcement and industry operations groups are located at both ATF
field divisions and field offices. Field office agents report to the group
supervisor or Resident Agent in Charge for their office, while Industry
Operations Investigators typically report to an area supervisor for industry
operations who may be based in a different location. There is also typically
a Field Intelligence Group at the field division level composed of agents,
Industry Operations Investigators, Intelligence Research Specialists, and
support staff. This group is responsible for supporting the field division’s

       24   The Roswell satellite location will not have a full Gunrunner team.

       25  These models describe the optimum staffing levels, but the OIG was told that
ATF field offices are frequently short staffed.


U.S. Department of Justice                                                          21
Office of the Inspector General
Evaluation and Inspections Division
criminal investigations and industry operations groups by producing tactical
and strategic intelligence products and other analytical services.

       The new Gunrunner teams that ATF plans to deploy as part of its
expanded Project Gunrunner use a staffing model that incorporates both
industry operations and
investigations personnel in a          Houston Field Division: Case Example
single team. In a June 17, 2009,     In one investigation, the Industry Operations
memorandum to all Special            Investigator assigned to the enforcement
                                     group identified a trend in which certain
Agents in Charge communicating       individuals were buying guns that are
ATF’s national firearms              frequently used by Mexican drug traffickers
trafficking enforcement strategy,    for Mexican cartels. That discovery led to an
the Acting Assistant Director for    investigation that resulted in the
Field Operations stated that         identification and indictment of 10
                                     individuals involved in gun trafficking who
ATF’s “regulatory and                had supplied weapons used in the murder of
enforcement missions are             11 Mexican police officers.
interwoven and provide a
comprehensive approach to ATF’s mission – reducing violent crime,
protecting the public and preventing terrorism.” The memorandum also
states that these goals can be achieved only by the integrated efforts of
agents, Industry Operations Investigators, Intelligence Research Specialists,
and support personnel. To promote this integration, ATF’s staffing model
for the new Gunrunner teams includes six agents, one supervisor, two
Industry Operations Investigators, one Intelligence Research Specialist, and
one Investigative Analyst.

ATF’s Gunrunner team staffing model appears adequate.

       ATF’s Gunrunner team staffing model appears sound. ATF told us
that so far on Project Gunrunner the industry operations and enforcement
elements of ATF have worked together well. Many of the leads that ATF
uses to develop firearms trafficking cases are generated by Industry
Operations Investigators who have experience, knowledge, and contact with
gun dealers that benefit agents working on firearms trafficking cases. In
addition, an Intelligence Research Specialist assigned to a Gunrunner team
will gain more access to investigatory information through direct contact
with agents and Industry Operations Investigators. The Gunrunner team
staffing model will provide agents, Industry Operations Investigators, and
Intelligence Research Specialists with greater access to each other. This
allows ATF staff who normally work in different organizational units to
interact directly with each other without having to prepare formal referrals
or “go through channels” to obtain or share information.

      ATF had previously assigned industry operations and intelligence staff
to enforcement groups that focus on Project Gunrunner cases, and some

U.S. Department of Justice                                                  22
Office of the Inspector General
Evaluation and Inspections Division
personnel we spoke with said the experience was successful. For example,
one Industry Operations Investigator and one Intelligence Research
Specialist in the Houston Field Division are assigned to an enforcement
group that focuses on firearms trafficking cases related to Project
Gunrunner. Both ATF personnel assigned to this group and their managers
told us they have been pleased with the results of the collaboration between
enforcement and industry operations. The group supervisor described the
Intelligence Research Specialists as being “absolutely necessary” to
investigate firearms trafficking to Mexico. According to ATF division
managers, the Industry Operations Investigator and Intelligence Research
Specialist in Houston used their experience and knowledge to contribute to
the efforts of the enforcement group.

       Support for ATF’s Gunrunner team staffing model was widespread
among ATF staff we interviewed at headquarters and in the Southwest
border field offices and divisions. In fact, 24 of 28 (86 percent) of the field
personnel we asked about this staffing model responded favorably. For
example, one agent who had experience working with Industry Operations
Investigators told the OIG, “The ability for us to identify traffickers has been
unbelievably more effective . . . an agent cannot do that [type of analysis].”
An ATF manager said it was advantageous to have an Intelligence Research
Specialist position attached to the enforcement group because it helped the
agents be a lot more productive. Those staff that did not support the model
agreed with the concept of combining personnel from different functional
areas, but suggested different mixes of positions (Intelligence Research
Specialists, Investigative Analysts, Industry Operations Investigators, and
agents). However, the overall sentiment expressed to the OIG was that the
new model would be more effective than the standard staffing model
because ATF staff with different skill sets from investigative, regulatory, and
intelligence positions could more easily communicate with each other.

ATF should define Gunrunner team member roles and reporting structures.

       Although the Gunrunner team staffing model brings together the
expertise of agents, Industry Operations Investigators, and Intelligence
Research Specialists, we found that the supervisory and reporting structure,
the expected roles of team members, and the extent to which team members
will be dedicated to firearms trafficking investigations remain undefined.
Similarly, it is unclear what role Industry Operations Investigators and
Intelligence Research Specialists will have on the new Gunrunner teams or
what their exact duties will be.

      Supervisory Structure. We found that ATF has not yet clearly defined
the organizational and supervisory structure for Gunrunner team members.
In the standard ATF staffing model, Industry Operations Investigators and

U.S. Department of Justice                                                23
Office of the Inspector General
Evaluation and Inspections Division
Intelligence Research Specialists (even when assigned to an enforcement
group) report to an Industry Operations area supervisor and Field
Intelligence Group supervisor, respectively. These supervisors are
responsible for completing annual performance evaluations for their
subordinate staff. However, the supervisory structure for the Gunrunner
team staffing model remains vague because Industry Operations
Investigators and Intelligence Research Specialists will be working on a
Gunrunner team led by a group supervisor. It is unclear whether ATF plans
to maintain the current chain of command structure for the new model
Gunrunner teams or whether all staff members will report to the group
supervisor. While this was not a problem in the Houston Field Division
because the area supervisor and group supervisor were co-located and
worked closely together, we believe that the lack of clarity in the reporting
structure in new Gunrunner teams may create issues in locations where
area supervisors and group supervisors are not co-located.

       Roles of Inspectors and Intelligence Research Specialists. Similarly, it
is unclear what role Industry Operations Investigators and Intelligence
Research Specialists will have on the new Gunrunner teams or what their
exact duties will be. According to Houston Field Division staff, the Industry
Operations Investigator currently assigned to an enforcement group in the
Houston Field Division is expected by division management to dedicate
30 percent of his time to conducting “targeted inspections” of gun dealers
suspected of trafficking. 26 However, ATF managers were not consistent in
their opinions of whether Industry Operations Investigators on the new
Gunrunner team would be completing “targeted inspections” or be assigned
a normal inspection load from their area supervisor. One ATF supervisor,
speaking about ATF staff assigned to Project Gunrunner, told the OIG, “You
need to have some guidelines, but not so strict that you don’t take the
different demographics and everything else into consideration.” Lack of
guidance for Industry Operations Investigators assigned to Gunrunner
teams could lead to their being diverted from their regular gun dealer
inspection duties or not assisting their Gunrunner team to the full extent
possible. This could diminish their contributions to the group to which they
are assigned and to Project Gunrunner efforts as a whole.

      There is also ambiguity about whether Intelligence Research
Specialists assigned to new Gunrunner teams will be solely responsible for
supporting their teams or whether they also will be responsible for
supporting other ATF staff. Typically, an Intelligence Research Specialist

       26  “Targeted inspections” are ATF compliance inspections conducted on suspect
gun dealers, as opposed to a routine inspection conducted based on the time since the
dealers’ last inspection.


U.S. Department of Justice                                                        24
Office of the Inspector General
Evaluation and Inspections Division
assigned to a field division produces intelligence products and supports ATF
staff for a geographic area. Their role has not been limited to an ATF group
or to a specific functional jurisdiction, such as arson or firearms trafficking.
But the Gunrunner team staffing model, which assigns an Intelligence
Research Specialist directly to each Gunrunner team, has left their role
unclear. In addition, because an Investigative Analyst and an Intelligence
Research Specialist will be on the same team, there could be an overlap in
some duties, such as compiling research from ATF and public databases
and providing direct case support. Since ATF has not yet issued formal
guidelines for the two positions, these resources could be performing
duplicate functions.

       Firearms Trafficking Workload. Another undefined staffing issue is the
extent to which team members will be devoted exclusively to Project
Gunrunner versus assisting with other areas of ATF’s jurisdiction. The ATF
Program Plan makes clear that the new Gunrunner teams will be dedicated
to firearms trafficking investigations and reducing the associated high level
of related violence on the border between the United States and Mexico.
However, there is significant uncertainty about whether personnel assigned
to the new Gunrunner teams will be dedicated exclusively to support Project
Gunrunner.

      In some locations, such as McAllen and Las Cruces, other ATF
enforcement groups will be able to investigate other matters within ATF’s
jurisdiction, such as arson and explosives cases. Other locations such as
El Centro and Roswell have little ATF presence. There is no precedent for a
Gunrunner team being the only ATF presence in a given area, and ATF has
no guidelines defining when, if at all, a team created with funds dedicated to
Project Gunrunner should work on non-firearms trafficking matters.
Consequently, without such guidelines, resources intended to support
Project Gunrunner could be used to carry out non-Project Gunrunner tasks.

Conclusion

       The staffing model ATF plans to use for the expansion of Project
Gunrunner appears sound, and the overwhelming number of ATF field
personnel we spoke to agreed. However, several elements to the new model
remain unclear: (1) the role of Industry Operations Investigators and
Intelligence Research Specialists on the new teams, (2) the teams’
supervisory structure, and (3) the level of exclusivity with which staff on the
new teams will be dedicated to Project Gunrunner investigations. Clearly
defining the roles of each team member and the reporting structure for the
Gunrunner teams prior to their inception will help ATF ensure that future
Gunrunner teams operate smoothly.


U.S. Department of Justice                                                25
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that ATF:

       3. clearly define the roles and reporting structure of each staff
          member on the new Gunrunner teams.

       4. ensure that staff on the new Gunrunner teams are not regularly
          diverted from working on firearms trafficking investigations to
          Mexico or related violent crime.




U.S. Department of Justice                                                 26
Office of the Inspector General
Evaluation and Inspections Division
                PART III: SPANISH LANGUAGE PROFICIENCY



ATF has insufficient numbers of personnel proficient in Spanish on
Gunrunner teams.

       We found that a lack of Spanish language skills poses operational and
safety challenges for Project Gunrunner personnel. The personnel assigned
to locations where new Gunrunner teams will be placed generally lack
proficient Spanish language skills. Over the past year, ATF has
implemented several Spanish language pilot programs and has made efforts
to hire staff with proficiency in Spanish. However, improved training and
hiring are needed to ensure a sufficient number of Spanish-speaking
employees for effective operations and personnel safety on the new
Gunrunner teams.

       ATF will be locating new Gunrunner teams in McAllen, El Centro, and
Las Cruces where more than half of the population speaks predominately
Spanish (see text box). Each new Gunrunner team will be staffed with
agents and Industry Operations Investigators who will conduct surveillance,
interview suspects and witnesses,
                                            Percentage of Population with
make arrests, obtain and execute             Spanish as Native Language
search warrants, and interact with 

gun dealers. To perform these            • McAllen, Texas: 88%

duties, agents and Industry              • El Centro, California: 74%

Operations Investigators must often      • Las Cruces, New Mexico: 51%

use Spanish to communicate with 

                                         Source: 2000 U.S. Census Bureau
witnesses, suspects, and
community members to gather and
analyze evidence. ATF’s lack of sufficient Spanish-speaking personnel will
increase the workload of its bilingual staff and extend the time required to
follow up on intelligence leads or handle investigative matters.

       ATF personnel we interviewed also told us that the safety of agents
and Industry Operations Investigators who lack Spanish language skills
along the Southwest border can be compromised. ATF staff can be
confronted with dangerous situations if they are unable to speak Spanish
during surveillance operations, interviewing suspects and witnesses,
making arrests, or executing search warrants. We believe it is critical for
ATF to ensure that sufficient Southwest border personnel speak Spanish to
safely and effectively perform their Gunrunner duties.

     However, we found that ATF’s current and newly hired Gunrunner
team members lack Spanish language skills. For example, according to the

U.S. Department of Justice                                            27
Office of the Inspector General
Evaluation and Inspections Division
Assistant Special Agent in Charge of the division who will oversee the new
Gunrunner team in El Centro, none of the four newly hired agents speaks
Spanish. In McAllen only two of five ATF agents currently assigned there
speak Spanish. Several ATF staff identified a lack of Spanish proficiency as
the biggest challenge facing Project Gunrunner.

Spanish Language Training for Personnel Along the Southwest Border

       Almost 50 percent of ATF personnel we interviewed in the field –
including agents, Industry Operations Investigators, Assistant Special
Agents in Charge, Special Agents in Charge, and others stationed along the
Southwest border – told the OIG that they had a strong interest in Spanish
language training. However, most were unsure whether ATF provides such
training.

       ATF officials said they are aware of the need for Spanish language
skills along the Southwest border and have made some training available.
ATF piloted online and classroom Spanish courses during FY 2009 for
employees assigned to Southwest border states, including a 120-day online
pilot course and two 10-day classroom Spanish immersion courses. ATF
officials told the OIG that in May 2009 the Federal Law Enforcement
Training Center provided a 40-hour Law Enforcement Survival Spanish
course for ATF personnel. 27 In its FY 2010 budget, ATF requested $200,000
for Spanish language training. However, this request was removed from the
Department’s budget during the Office of Management and Budget review
process. ATF officials told us they had hoped to use the money to, among
other things, provide additional Law Enforcement Survival Spanish courses.

New Qualifications for Hiring New Gunrunner Team Members

       In addition to training current staff, ATF has also attempted to
improve its hiring process to recruit personnel already proficient in Spanish.
ATF added a special qualification for Spanish language skills in its fall 2008
agent vacancy announcement. 28 According to the Director of ATF’s
Recruiting, Hiring, and Staffing Office, this was the first time ATF had
advertised for such a skill. The vacancy announcement closed on December
31, 2008, and ATF officials told us it began assessing and testing applicants
in early 2009. As of September 2009 that process remained ongoing, and

       27  According to ATF, this class is designed to familiarize students with Spanish
slang, arrest expressions, and cultural information, as well as to enable them to identify
potentially dangerous situations and communicate key phrases in Spanish.

       28The four individuals hired for El Centro discussed earlier were part of ATF’s
FY 2007 recruitment.


U.S. Department of Justice                                                             28
Office of the Inspector General
Evaluation and Inspections Division
ATF projected it would complete its review of applicant qualifications by
October 31, 2009. Because it has not completed processing the
applications, ATF could not tell us how many of these applicants meet the
proficiency requirement and may be available for assignment to Gunrunner
teams.

Conclusion

       ATF must act to improve the Spanish language proficiency of its staff
along the Southwest border. Such proficiency is important to the safety and
effectiveness of the new Gunrunner teams.

Recommendation

       We recommend that ATF:

       5. ensure sufficient current staff are proficient in Spanish by:

          a.	 identifying the positions and job categories of new Gunrunner
              team members that require Spanish language proficiency,

          b. prioritizing training for those individuals having a safety-related
             need for Spanish language skills, and

          c.	 establishing measurable goals for providing Spanish language
              training to Gunrunner team members.

       6. include in future vacancy announcements for Gunrunner team
          members that Spanish language proficiency is desirable.




U.S. Department of Justice                                                29
Office of the Inspector General
Evaluation and Inspections Division
    PART IV: PROGRAM MEASURES FOR NEW GUNRUNNER TEAMS



More specific program measures are needed to accurately measure the
impact of Project Gunrunner.

       We concluded that the program measures and performance goals that
ATF developed to track the results of Project Gunrunner under the Recovery
Act will not fully demonstrate what impact, if any, the new resources
dedicated to Project Gunrunner will have on ATF’s ability to combat firearms
trafficking. The performance measures are based on general nationwide
data, not data specific to either investigations accomplished under Project
Gunrunner or the primary geographic area in which the new Gunrunner
teams will operate (the four Southwest border field divisions).

ATF developed three Recovery Act program measures.

       All Department components that received Recovery Act funds are
required by the Office of Management and Budget to develop program
measures and regularly monitor performance to ensure they achieve
program-specific objectives. To facilitate that performance monitoring, each
component is required to include key performance output and outcome
indicators and targeted performance levels with associated milestone dates.
ATF reported in its Program Plan that it would use three measures to track
its progress on a quarterly basis against achievement of Recovery Act and
program-specific objectives. The three measures and associated
performance goals are:

       1.	 Measure: Number of firearms criminal investigations initiated
           Goal: 63 more cases recommended for prosecution

       2.	 Measure: Number of defendants recommended for prosecution
           Goal: 90 more defendants recommended for prosecution

       3.	 Measure: Number of federal government personnel hired
           Goal: 37 federal employees to be hired by September 20, 2010

       According to ATF, the time period it plans to track for the first
2 measures will be the 1-year period after all 21 newly hired agents enter on
duty (of the 37 personnel to be hired, 21 will be agents). Consequently, the
first 2 measures represent ATF’s expectation that the 21 new agents will
generate 3 cases each per year and that there will be an average of about
1.5 defendants per case.


U.S. Department of Justice                                             30
Office of the Inspector General
Evaluation and Inspections Division
      ATF funds Project Gunrunner activities through multiple sources,
including Recovery Act funding. Although the Office of Management and
Budget requires ATF to track and demonstrate Project Gunrunner results
for only the Recovery Act funding, it is unclear whether ATF will be able to
attribute the results recorded under its program measures and performance
goals exclusively to Recovery Act funding.

Recovery Act program measures are not based on Project Gunrunner
firearms trafficking data.

       We believe ATF has not selected relevant measures or set reasonable
goals for the new Gunrunner teams. The data used to develop the measures
was not specific to the type of case likely to be generated under Project
Gunrunner – investigations of firearms trafficking – or to the four Southwest
border field divisions where Gunrunner teams will operate. Although ATF’s
case management database (N-Force) could provide data specific to Project
Gunrunner, ATF is not planning to use such data to measure its
performance. 29

       We believe that the measure of three new investigations referred for
prosecution (63 cases) is not an accurate measure for several reasons.
First, it was based on a national average of all types of ATF criminal cases
referred for prosecution, including arson, explosives, and alcohol and
tobacco diversion. Second, the measure uses aggregated data from ATF’s 25
field divisions to project the number of cases that will be generated in ATF’s
Southwest border field divisions. Third, the measure of three cases per new
agent reflects a seemingly arbitrary reduction of almost 40 percent from the
nationwide average of 4.9 cases per agent to account for inexperienced
personnel. 30 While we agree that new employees are likely to be less
productive than experienced employees, we received no information
indicating that the reduction was based on known lower productivity rates.

       ATF’s measure of 90 defendants referred for prosecution was only
slightly more specific and was established by multiplying the goals for new

       29  N-Force collects many data points related to each investigation, such as case
type, special project codes, case initiation date, initiating field office, referrals for
prosecution, number of defendants, and case disposition. Using that data, ATF can
generate statistical reports on its accomplishments for specific time periods, locations, or
types of activities.

       30  The exact data used by ATF to develop this measure cannot be reproduced (as
data in N-Force changes daily), but the data available to us from FY 2004 through June 30,
2009, indicates that the average number of cases per agent (based on an average of 2,500
agents) is about 4.9.


U.S. Department of Justice                                                              31
Office of the Inspector General
Evaluation and Inspections Division
cases referred for prosecution (63) by 1.5, the average number of defendants
referred for prosecution from cases labeled as Southwest border in N-Force.
Cases labeled as Southwest border are still not specific to Project Gunrunner
and include all cases that have any nexus to Mexico, including general gang
or drug crimes anywhere in the United States. The measure would arguably
be more accurate if it were based on the number of defendants referred for
prosecution from firearms trafficking cases in the four ATF Southwest border
field divisions.

Specific Recovery Act program measures are needed to more accurately
measure Project Gunrunner’s impact under the Recovery Act.

       ATF has identified several program metrics for Project Gunrunner,
many of which N-Force is already designed to capture, which we believe
would enhance the measurement of Recovery Act performance. ATF
personnel also told us that other measures would be more valid than the
selected measures. For example, in addition to the numbers of firearms
trafficking cases referred for prosecution and the number of defendants,
pertinent measures could include the number of:

       1.	   firearms trafficking leads started and cleared,
       2.	   referrals to Mexican and U.S. law enforcement agencies,
       3.	   gun dealer inspections resulting in referrals to agents,
       4.	   firearms seized,
       5.	   firearms submitted for tracing that lead to trafficking 

             investigations, 

       6.	   firearms that were prevented from being trafficked,
       7.	   potential firearms trafficking suspects identified,
       8.	   arrests, and
       9.	   ATF collaborations with other agencies resulting in exchange of
             information and reduction of firearms trafficking-related violence.

Conclusion

      Overall, we concluded that ATF’s measures for “firearms criminal
investigations initiated” and “defendants recommended for prosecution” will
not capture specific data on the results of the new Gunrunner teams. We
believe that measuring additional factors, such as those listed above, would
enhance ATF’s ability to assess the specific impact of the new Gunrunner
teams.




U.S. Department of Justice                                                 32
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that ATF:

       7. develop more specific Recovery Act program measures to reflect
          firearms trafficking-specific data for criminal cases and defendants
          referred for prosecution as a result of Project Gunrunner.




U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation and Inspections Division
                   CONCLUSION AND RECOMMENDATIONS



       The Recovery Act and other recent appropriations have enabled ATF
to expand Project Gunrunner. ATF has taken a series of steps to identify
new locations for Gunrunner teams, create a new staffing structure, ensure
more staff along the Southwest border are proficient in Spanish, and
establish program measures to evaluate the impact of these resources.
However, ATF also needs to take several additional actions to ensure
Gunrunner resources are used efficiently and effectively to combat firearms
trafficking to Mexico.

       We concluded ATF’s decisions to place Gunrunner resources in
McAllen, El Centro, Ciudad Juarez, and Tijuana are sound. However, ATF
crime gun and workload data shows that Las Cruces and Roswell do not
have large amounts of firearms trafficking or crime that is linked to Mexican
cartels. Therefore, we concluded that assigning Gunrunner resources to
these two locations is questionable. Additional staff dedicated to the Las
Cruces Field Office could create a jurisdictional overlap with the El Paso
Field Office.

      The staffing model ATF plans to use for the new Gunrunner teams
appears sound and should allow it to utilize its resources more effectively by
combining personnel from enforcement and industry operations within the
same team. However, the supervisory structure, roles of the individual team
members, and the extent to which members will work exclusively on
firearms trafficking cases should be further defined.

       We found that the personnel assigned to locations where new
Gunrunner teams will be located generally lack proficient Spanish language
skills, which could pose significant safety and operational challenges. ATF
has implemented several Spanish language pilots and has also made efforts
to hire staff with proficiency in Spanish. However, improved training and
hiring are needed to ensure effective operations and personnel safety on the
new Gunrunner teams.

      Finally, the program measures ATF developed are insufficient to fully
evaluate the impact the new Gunrunner teams will have on ATF’s ability to
combat firearms trafficking and related violence along the Southwest border.

       We recommend that ATF:

       1. assess whether other locations along the Southwest border
          represent a better use of Gunrunner resources intended for

U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
          Roswell and Las Cruces to ensure maximum impact of Gunrunner
          resources.

       2. Phoenix and Dallas Field Divisions develop deconfliction protocols
          to manage current and potential jurisdictional overlaps.

       3. clearly define the roles and reporting structure of each staff
          member on the new Gunrunner teams.

       4. ensure that staff on the new Gunrunner teams are not regularly
          diverted from working on firearms trafficking investigations to
          Mexico or related violent crime.

       5. ensure sufficient current staff are proficient in Spanish by:

          a.	 identifying the positions and job categories of new Gunrunner
              team members that require Spanish language proficiency,

          b. prioritizing training for those individuals having a safety-related
             need for Spanish language skills, and

          c.	 establishing measurable goals for providing Spanish language
              training to Gunrunner team members.

       6. include in future vacancy announcements for Gunrunner team
          members that Spanish language proficiency is desirable.

       7. develop more specific Recovery Act program measures to reflect
          firearms trafficking-specific data for criminal cases and defendants
          referred for prosecution as a result of Project Gunrunner.




U.S. Department of Justice                                                 35
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX II: POSITION DESCRIPTIONS FOR ATF STAFF



      The information below was derived from ATF’s official position
descriptions and interviews with ATF staff.

Special Agent (agent) federal law enforcement officers who generally
investigates criminal violations of federal laws that fall under the
jurisdiction of ATF such as arson and explosive cases, convicted felon in
possession of a firearm, alcohol and tobacco crimes, and firearms
trafficking. They contribute to Project Gunrunner by investigating crimes
linked to firearms trafficking to Mexico, securing indictments from the
Assistant United States Attorneys, and arresting the individuals. Such
crimes include guns acquired by straw purchasers, corrupt gun dealers,
and conspiracy firearms trafficking cases.

Industry Operations Investigator generally conducts inspections of new
gun dealers and federal explosives licensees by reviewing records, inventory,
and the licensee’s conduct of business. They are also responsible for
training gun dealers on the relevant laws as well as detecting and
preventing gun trafficking by noticing indicators and suspicious behaviors.
Inspectors have an important role in Project Gunrunner to educate gun
dealers to avoid selling firearms to suspected gun traffickers, provide
intelligence and make referrals to ATF agents when suspected gun
trafficking activity is taking place, and assist with the analysis of gun
dealers and the records they keep.

Intelligence Research Specialist performs in-depth intelligence analyses
in support of ATF operations. They provide intelligence products such as
link analyses, visual investigative analyses, and telephone toll record
analyses to provide ATF staff with information about ongoing or emerging
investigations. Intelligence Research Specialists also act in liaison and
coordination functions both within ATF (with headquarters and other field
offices) as well as with external partners, such as other federal law
enforcement.

Investigative Analyst functions in an investigative and research support
position for ATF which includes compiling information from ATF databases
on criminal leads and compiling reports for the use of ATF staff.
Investigative Analysts also perform many of the administrative functions for
an enforcement group or field office.




U.S. Department of Justice                                             37
Office of the Inspector General
Evaluation and Inspections Division
Area Supervisor typically manages a group of about 10 Industry Operations
Investigators, although they are frequently dispersed throughout satellite
offices. In addition to managing, hiring, and training, an area supervisor
assigns Industry Operations Investigators to inspect gun dealers as well as
explosive dealers and, when needed, receives referrals for criminal
investigations from Industry Operations Investigators and passes them on to
the intelligence group.

Group Supervisor typically manages a group of about 10 agents who
comprise an enforcement group. He or she provides guidance and
supervision for criminal investigations and distributes work to these agents,
often based on referrals from intelligence and industry operations. A group
supervisor can also be called a “resident agent in charge” when the head of
an enforcement group located in a city that is not the field division
headquarters.

Director of Industry Operations is in charge of all the Industry Operations
Investigators and area supervisors within a field division. He or she
determines where to locate staff within the field division and decides which
gun dealers are inspected, usually based on the time since the last
compliance inspection.




U.S. Department of Justice                                             38
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX III: CONGRESSIONAL TESTIMONY 

                         REVIEWED BY THE OIG



   1. “Law Enforcement Response to Mexican Drugs Cartel,” Panels I and II,
      Joint Hearing of the Crimes and Drugs Subcommittee of the Senate
      Judiciary Committee and the Senate Caucus on Int’l Narcotics
      Control, March 17, 2009

   2. U.S. House of Representatives, Committee on Appropriations
      Subcommittee on Commerce, Justice, Science and Related Agencies,
      March 24, 2009

   3. “Southern Border Violence, Homeland Security Threats,
      Vulnerabilities,” Panels I and II, Senate Homeland Security and
      Governmental Affairs Committee, March 25, 2009

   4. “Southern Border Violence, Homeland Security Threats,
      Vulnerabilities,” Foreign Relations Committee, March 30, 2009

   5. “Examining Preparedness and Coordination Efforts of First
      Responders Along the Southwest Border,” House Homeland Security,
      Subcommittee on Emergency Communications, Preparedness, March
      31, 2009

   6. “Department of Justice,” House Committee on Appropriations, April
      23, 2009

   7. “Escalating Violence in Mexico and the Southwest border as a Result
      of Mexican Drug Trade,” House Judiciary, Subcommittee on Crime,
      May 6, 2009

   8. “Southern Border Violence: State and Local Perspectives,” Senate
      Committee on Homeland Security, April 20, 2009; “Rise of Mexican
      Drug Cartels and US National Security,” House Committee on
      Oversight and Government Reform, July 9, 2009

   9. “Combating Border Violence: The Role of Interagency Cooperation in
      Investigations,” House Homeland Security, Subcommittee on Border,
      July 16, 2009




U.S. Department of Justice                                              39
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IV: THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 

                   EXPLOSIVES’ RESPONSE





U.S. Department of Justice                            40
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            41
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            42
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            43
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            44
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            45
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX V: OIG ANALYSIS OF THE BUREAU OF ALCOHOL, 

         TOBACCO, FIREARMS AND EXPLOSIVES’ RESPONSE



      The Office of the Inspector General provided a draft of this report to
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) for its
comment. ATF’s response is included in Appendix IV to this report. The
OIG’s analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1. ATF assess whether other locations along the
Southwest border represent a better use of Gunrunner resources intended
for Roswell and Las Cruces to ensure maximum impact of Gunrunner
resources.

       Status. Unresolved – open.

       Summary of ATF Response. ATF did not concur with this
recommendation and stated it believed the establishment of these offices
was justifiable and reasonable. ATF cited multiple factors to support its
position. ATF first stated that having field offices strategically located in the
four Southwest border divisions is essential to combat firearms trafficking,
and that placement of resources must be considered in the context of
broader ATF plans. ATF also questioned whether crime gun trace data
provides a complete picture of the firearms trafficking problem. ATF also
cited one Phoenix Field Division case involving the movement of stolen
firearms and ammunition through the Las Cruces area, and stated that Las
Cruces is strategically located near primary routes for trafficking firearms to
Mexico. ATF stated that it believes it will “likely see an increase in the use
of Interstates 25 and 10 to traffic firearms, acquired elsewhere in the U.S.”

       ATF also stated that drug traffickers are shifting their operations to
move contraband through New Mexico, and that ATF has recently enhanced
its cooperation with ICE by participating on ICE-led Border Enforcement
Security Teams and needs additional resources in the Las Cruces area to
support this effort. ATF next pointed out that Las Cruces was one of the
230 cities identified in the 2009 National Drug Threat Assessment as having
Mexican drug cartel activity. ATF also noted that the OIG report relied on
information from Las Cruces police officials regarding crime in the Roswell
area, and stated that, even if the Las Cruces Police are correct that the
current crime problem consists of “home grown” crime not connected to
firearms trafficking, an ATF investigative presence “usually leads to
uncovering violations within ATF’s jurisdiction.” Finally, ATF cited a
firearms trafficking case originating in a city between Las Cruces and El

U.S. Department of Justice                                                 46
Office of the Inspector General
Evaluation and Inspections Division
Paso, and noted the population of licensed gun dealers in the Las Cruces
and Roswell areas as evidence that it is “likely that these areas will grow in
prominence” in the future.

       OIG Analysis. We believe that ATF’s reasoning for not reconsidering
its placement of Gunrunner resources in Las Cruces and Roswell is not
persuasive. First, we agree that the strategic placement of resources is
essential, but our assessment of the data and reasoning ATF told us it used,
as well as our own analysis of crime gun trace data; firearms trafficking
workload data; and interviews with ATF field office staff, and other federal,
state, and local law enforcement officials did not support the decision to add
Gunrunner resources to Las Cruces and Roswell. Regarding ATF’s
statement that Mexican crime gun trace submissions are incomplete and
inaccurate, the extensive data that is available from successful traces
clearly show that the Las Cruces and Roswell areas are not significant
sources of guns being used to commit crimes in Mexico. Moreover, ATF
offered no information indicating that the trafficking patterns shown in the
many successful traces are inaccurate.

        While ATF predicts that Las Cruces and Roswell may experience
firearms trafficking in the future, available data and knowledgeable law
enforcement officials do not support that it is currently a problem. In fact,
ATF staff in the Las Cruces Field Office told us that they are able to handle
all firearms trafficking investigations using only about 30 percent of their
current resources. By contrast, other areas along the Southwest border
already have known firearms trafficking problems, yet have received little or
no ATF resources. The OIG maintains that ATF resources should be used to
address current firearms trafficking problems before they are placed in
locations that face potential future problems. During our review, we found
no evidence that the Las Cruces and Roswell areas have a current or
emerging firearms trafficking problem. Moreover, in Las Cruces
particularly, there is already a fully staffed ATF field office whose employees
told us that it is able to address the firearms trafficking cases occurring
there. If ATF’s prediction that the firearms trafficking problem may grow in
the future to exceed the capacity of the staff already in Las Cruces comes to
fruition, then we believe that would be the time to move more resources
there. In the interim, it makes more sense to use the resources to combat
ongoing firearms problems elsewhere along the Southwest Border.

       ATF’s statement that Las Cruces is located near known firearms
trafficking routes may be correct, but ATF’s own response makes clear that
the firearms traveling on these routes were obtained in other locations, not
Las Cruces. The Phoenix Field Division case in which stolen firearms
transported through the Las Cruces area were interdicted at a Border Patrol

U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
checkpoint is not evidence of the need for a Gunrunner team in Las Cruces,
as vehicle interdiction is not a primary investigative responsibility of
Gunrunner team members. Rather, vehicle interdiction at checkpoints and
along trafficking routes is primarily the responsibility of the Border Patrol
and state and local law enforcement. While ATF plans to increase its
participation on ICE’s Border Enforcement Security Teams, we do not
believe that justifies the placement of a full Gunrunner team in an area that
is not a known, significant source of Mexican crime guns.

       Moreover, we do not believe that the 2009 National Drug Threat
Assessment shows that Las Cruces and Roswell are the best locations for
Project Gunrunner resources. That assessment identified 230 cities, in no
rank ordering, in which Mexican cartels maintained drug distribution
networks or supplied drugs to distributors. It did not consider firearms
trafficking in identifying those cities. In addition, among the 230 cities the
assessment identified are 26 other cities that, like Las Cruces, are on or
within about 50 miles of the U.S.-Mexico border and have a Mexican cartel
presence. Included in those cities are locations that ATF personnel told us
need additional resources to combat firearms trafficking, such as Eagle
Pass, Laredo, and Del Rio, Texas. Further, Roswell is not among the 230
cities identified in the National Drug Threat Assessment. Similarly, while
we acknowledge the Threat Assessment reported activity by Barrio Azteca in
the Las Cruces area, actual FY 2008 investigation data did not show that
there is currently a significant firearms trafficking problem in Las Cruces,
notwithstanding the presence of Barrio Azteca.

       Regarding ATF’s comments on Las Cruces police officials’ assessments
that the crime problem in Roswell is unrelated to firearms trafficking, we
note that ATF did not challenge the accuracy of this information. Moreover,
other federal law enforcement officials responsible for the Roswell area
concurred with the police officials’ assessments. Additionally, the likelihood
that ATF investigators will identify matters within ATF’s jurisdiction in any
location they are placed does not support a decision to place resources in
Las Cruces and Roswell in the absence of significant evidence of gun
trafficking activity and in place of other areas with a demonstrated gun
trafficking problem.

       Finally, ATF cited two cases as indicative of a potential larger firearms
trafficking problem in the Las Cruces and Roswell areas. However, our
assessment of gun trafficking and crime gun trace data and our interviews
with law enforcement officials across the Southwest border states do not
support the contention that the Las Cruces and Roswell areas have a
demonstrated firearms trafficking problem.



U.S. Department of Justice                                                48
Office of the Inspector General
Evaluation and Inspections Division
      Consequently, we still believe that ATF should reconsider its decision
to place Gunrunner resources in Las Cruces and Roswell, and instead
consider areas with current firearms trafficking problems. By December 15,
2009, please provide us with a further response to this recommendation.

      Recommendation 2. ATF Phoenix and Dallas Field Divisions develop
deconfliction protocols to manage current and potential jurisdictional
overlaps.

       Status. Resolved – closed.

      Summary of ATF Response. ATF stated it does not believe it needs
to develop specific protocols between the Phoenix and Dallas Field Divisions
and that it is unaware of any significant deconfliction issues between those
two divisions. ATF stated that coordination among field divisions is not a
new issue to ATF and it has “well established procedures for coordination.”

      OIG Analysis. Although deconfliction issues have not yet occurred to
a significant degree, field personnel in the Phoenix and Dallas Field
Divisions told us that if a Gunrunner team is sent to Las Cruces,
deconfliction issues are likely to occur because of the potential jurisdictional
overlap. As a result, we intend to further examine ATF’s procedures for
coordination among field divisions in our subsequent Project Gunrunner
review.

Recommendation 3. ATF clearly define the roles and reporting structure of
each staff member on the new Gunrunner teams.

       Status. Resolved – open.

      Summary of ATF Response. ATF did not state concurrence or
nonconcurrence with this recommendation, but stated it would make clear
the roles of Industry Operations Investigators and Intelligence Research
Specialists assigned to Gunrunner teams, and would disseminate clear
guidelines regarding their use and supervisory chain of command.

      OIG Analysis. The action planned by ATF appears to be responsive to
our recommendation. By December 15, 2009, please provide a copy of the
guidelines for Gunrunner teams, or a status report on their development.

Recommendation 4. ATF ensure that staff on the new Gunrunner teams
are not regularly diverted from working on firearms trafficking investigations
to Mexico or related violent crime.



U.S. Department of Justice                                                49
Office of the Inspector General
Evaluation and Inspections Division
       Status. Resolved – open.

      Summary of ATF Response. ATF agreed that personnel assigned to
the new Gunrunner teams would be responsible for conducting criminal
investigations in support of Project Gunrunner and would not be regularly
diverted from that work.

     OIG Analysis. The action planned by ATF is responsive to our
recommendation. By December 15, 2009, please provide ATF’s plan for
monitoring the workload of Gunrunner personnel to ensure they are
working primarily on firearms trafficking investigations as intended.

       Recommendation 5. ATF ensure sufficient current staff are
proficient in Spanish by:

     a.  identifying the positions and job categories of new Gunrunner
team members that require Spanish language proficiency,

      b.    prioritizing training for those individuals having a safety-related
need for Spanish language skills, and

       c.    establishing measurable goals for providing Spanish language
training to Gunrunner team members.

       Status. Resolved – open.

       Summary of ATF Response. ATF concurred with this
recommendation. ATF agreed to identify the positions and job categories
requiring Spanish language proficiency; to ensure recruitment and training
efforts are appropriately targeted; to prioritize training for those individuals
who need Spanish language skills for safety; and stated it has in place
mechanisms for measuring the Spanish language training.

        OIG Analysis. The action planned by ATF is responsive to the
recommendation. By December 15, 2009, please provide copies of (1) the
list of positions and job categories that require Spanish language
proficiency; (2) the priority list of individuals needing Spanish language
skills for safety and the planned dates for providing this training; and (3) the
performance goals established for monitoring the provision of Spanish
language training.

      Recommendation 6. ATF include in future vacancy announcements
for Gunrunner team members that Spanish language proficiency is
desirable.


U.S. Department of Justice                                                 50
Office of the Inspector General
Evaluation and Inspections Division
       Status. Resolved – open.

       Summary of ATF Response. ATF concurred with this
recommendation and stated that it has taken steps to improve the hiring of
personnel with Spanish language proficiency. ATF stated that its Human
Resources Division and Office of Field Operations will work together to
include a requirement for Spanish language skills in future vacancy
announcements. ATF further stated it intends to hire “a sufficient number
of Spanish speaking personnel to fill a 2010 basic academy training class.”
ATF also noted it has the ability to pay Spanish language bonuses to
current personnel who establish proficiency in Spanish, and stated that it
will encourage and facilitate employees’ efforts to improve their Spanish
language skills.

      OIG Analysis. The action planned by ATF is responsive to the
recommendation. By December 15, 2009, please provide copies of the
revised vacancy announcements, and any notices or guidance to Southwest
border personnel regarding bonuses or other support available for
development of Spanish language skills. ATF’s stated intent to fill a 2010
basic academy training class with Spanish speaking recruits exceeds our
recommendation and is commendable.

      Recommendation 7. ATF develop more specific Recovery Act
program measures to reflect firearms trafficking-specific data for criminal
cases and defendants referred for prosecution as a result of Project
Gunrunner.

       Status. Resolved – open.

      Summary of ATF Response. ATF stated it will need additional time
to properly consider this recommendation. ATF also stated that OMB
limited it to three program measures and specified that one address hiring.
However, ATF asserted it can effectively use its case management system to
track more detailed case information, as recommended by the OIG. Also,
although not germane to our recommendation, ATF stated that it believes its
Recovery Act performance goals are reasonable given that new agents are
less productive.

      OIG Analysis. The OIG will await ATF’s response after it has fully
considered this recommendation. We continue to believe that the
performance measures developed are insufficient to fully evaluate the
impact the new Gunrunner teams will have on ATF’s ability to combat
firearms trafficking and related violence along the Southwest border. By



U.S. Department of Justice                                              51
Office of the Inspector General
Evaluation and Inspections Division
December 15, 2009, please provide an update on ATF’s Recovery Act
performance measures for Project Gunrunner.




U.S. Department of Justice                                          52
Office of the Inspector General
Evaluation and Inspections Division
